              Office of Inspector General
              Audit Report




     ASSISTANCE AGREEMENTS


Pre-Award Management of EPA Assistance Agreements
                E1FMB8-11-0001-8100256
                  September 30, 1998
Inspector General Division(s)   Headquarters Audit Division
 Conducting the Audit           Washington, D.C.
Region(s) covered               EPA Headquarters
Program Office(s) Involved      Office of the Administrator
                                Office of Administration and Resources Management
                                Office of Air and Radiation
                                Office of Enforcement and Compliance Assurance
                                Office of the Chief Financial Officer
                                Office of International Activities
                                Office of Prevention, Pesticides and Toxic Substances
                                Office of Research and Development
                                Office of Solid Waste and Emergency Response
                                Office of Water
MEMORANDUM
SUBJECT:     Pre-Award Management of EPA Assistance Agreements
             Audit Report No. E1FMB8-11-0001-8100256


FROM:        Elissa R. Karpf
             Deputy Assistant Inspector General
                for External Audits (2421)
TO:          Assistant Administrators
             Chief Financial Officer

        Our final audit report on Pre-Award Management of EPA Assistance Agreements
is attached. The purpose of this audit was to review the steps the Agency takes to
award assistance agreements, and identify opportunities for improvement. Our report
recommends improvements in training for project officers and managers, and enhanced
oversight by the Grants Administration Division and Senior Resource Officials.

       We received detailed and thoughtful responses to our draft report from many
program offices. These responses not only commented on our recommendations, but
offered suggestions to clarify and promote the issues, along with alternate solutions
when appropriate. The exit conference was attended by representatives from the
Offices of Administration and Resources Management (OARM); Air and Radiation;
Prevention, Pesticides and Toxic Substances; Research and Development; Solid
Waste and Emergency Response; and the Office of Water. We saw a uniform desire
to strengthen the Agency’s assistance management. We have modified several of our
recommendations to reflect the consensus which we believe was achieved at the exit
conference.

       The widespread desire to improve assistance management is encouraging. We
strongly urge OARM to both head and channel the enthusiasm and commitment of the
program offices in a direction which will result in consistent, sound Agency-wide
assistance management.

       We received responses to our draft report from each office represented at the
exit conference and the Office of the Chief Financial Officer. These responses have
been included in their entirety as Appendix B of this final report. While the responses
helped to educate us in the complexity of some of the issues as well as the diversity of
opinions, preparation of a single Agency-wide response will facilitate resolution of the
final report.

       This audit report describes findings and corrective actions the Office of the
Inspector General (OIG) recommends to strengthen assistance agreement
management. It represents the opinion of the OIG. Final determination on matters in
this audit report will be made by EPA managers in accordance with established EPA
audit resolution procedures.

Action Required

        We have designated the Acting Assistant Administrator for Administration and
Resources Management as the primary Action Official. We ask that he take all steps
necessary to provide us with one response which represents an Agency-wide position.
In accordance with EPA Order 2750, the Action Official is required to provide this office
a written response to the audit report within 90 days of the final audit report date. The
response to the final report should identify any completed or planned actions related to
the report’s recommendations. For corrective actions planned but not completed by the
response date, reference to specific milestone dates will assist in deciding whether to
close this report.

       We have no objection to the further release of this report to the public. Should
you or your staff have any questions, please contact Norman E. Roth, Divisional
Inspector General, Headquarters Audit Division, on (202) 260-5113.

Attachment




                                            2
                 EXECUTIVE SUMMARY


INTRODUCTION

Assistance is the transfer of anything of value for a public purpose of support or
stimulation authorized by law. EPA program offices provide funding and are
responsible for programmatic and technical oversight of the assistance process. The
Grants Administration Division (GAD) assures assistance application completeness by
performing an administrative review of the assistance application.




OBJECTIVES
EPA’s FY 1996 Integrity Act Report to the President and Congress declared post-award
oversight of assistance agreements and grants closeouts material weaknesses. The
purpose of our audit was to review the Agency’s pre-award process (steps the Agency
takes to award assistance agreements) to identify opportunities for improvement.


RESULTS IN BRIEF
Project Officers (POs) did not always negotiate workplans with well-defined
commitments, adequately determine and document that costs submitted with
assistance applications were reasonable, or prepare decision memoranda which
contained all information required to support recommendations for award. Neither POs,
nor those program officials reviewing and signing assistance approval documents, were
following established guidance in these areas. Senior Resource Officials (SROs),
supervisors of POs and other assistance approval officials are not usually required to
attend training. Therefore, they may not have recognized that additional information
was needed or have seen the need to hold POs accountable. Expanded training for
those involved in assistance management and enhanced oversight are needed. EPA
can use the pre-award approval process to improve post-award oversight capabilities.
Complete funding packages assist program officials, including the SRO, in holding
recipients accountable for expected outputs, determining whether expenditures are


                                          i                           Report No. 8100256
reasonable for the work performed, and ensuring that funded activities are
accomplished.

Of 55 Environmental Justice Through Pollution Prevention (EJP2) assistance
agreements awarded by the Office of Prevention, Pesticides, and Toxic Substances
(OPPTS) during FY 1997, 28 were improperly funded using resources intended for
other purposes. Improper use of funds happened because of poor funds controls within
OPPTS, because OPPTS division directors acted to avoid carrying over excess funds,
and because the Grants Administration Division’s “check and balance” process did not
identify the improper funding. This resulted in the reprogramming of $1.9 million
without required Congressional approval.




RECOMMENDATIONS
We recommend that the Acting Assistant Administrator for Administration and
Resources Management direct GAD to take the lead in the development of PO
refresher training courses; develop guidance explaining the types of omissions which
will result in GAD returning incomplete assistance funding packages to the program
offices; and work with program offices to develop a coordinated post-award
management strategy.

We recommend that the Acting Assistant Administrator for OARM raise the need for
additional grants training to the Resource Management Council, including an estimate
of the minimum resources required to deliver training Agency-wide, and options for
delivering the training.

We recommend that the Acting Assistant Administrator for OARM and the Chief
Financial Officer, as co-chairs of the Resource Management Committee, inform
program offices of the Committee’s decision(s) regarding resources for grants
administration training and the method(s) of delivery.

We recommend that Assistant Administrators require SROs to train all levels of staff
involved in assistance awards.

We recommend that GAD rewrite EPA Order 5730.1 to assign responsibility for
ensuring the use of correct program elements or program results codes exclusively to
program offices.

Agency Response




                                           ii                           Report No. 8100256
Written responses to the draft audit report and a subsequent meeting with OARM and
program office representatives indicated support for PO refresher training and manager
training, but disagreement over who should provide the training. There was support for
returning incomplete assistance packages to the program offices, although not, in all
cases, to the SROs. There was also support for developing post-award monitoring
plans, but program offices wanted to consider options other than post-award plans for
each assistance award. The program offices agreed that EPA Order 5730.1 should be
revised as we recommended. See Appendix B for the full text of the responses.

OIG Evaluation

We agree with the need for integrated manager training and flexibility in planning post-
award oversight. We also agree that not all incomplete assistance funding packages
should be returned to the SRO. Accordingly, we have revised our recommendations in
these areas.




                                           iii                           Report No. 8100256
[This page was intentionally left blank]




                   iv                      Report No. 8100256
                             TABLE OF CONTENTS

                                                                                                                          Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vii

CHAPTERS

1 - Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1
        Objective . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     1
        Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        1
        Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 2
        Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            3

2 - Important Information Is Needed Before Assistance Is Approved . . . . . . . . . . . . . . 4
       Workplans Should Be Well-Defined . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
       Cost Reasonableness Should be Determined and Documented . . . . . . . . . . . . 6
       The Decision Memorandum Should Be Complete . . . . . . . . . . . . . . . . . . . . . . . 7
       Additional Training and Oversight Are Needed . . . . . . . . . . . . . . . . . . . . . . . . 10
       Management Plans Can Improve Post-Award Oversight . . . . . . . . . . . . . . . . . 11
       Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

3 - Assistance Agreements In One Office Cited Inappropriate Program Elements . .                                                 18
       OPPTS Utilized Funds for Unintended Purposes . . . . . . . . . . . . . . . . . . . . . .                                  18
       Grants Administration Division Controls Need Improvement . . . . . . . . . . . . . .                                      21
       Corrective Actions Taken . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                23
       Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                24
       Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               24

APPENDIX A
Other Matters . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      25
      Screening Recipients Can Prevent Fraud, Waste and Abuse . . . . . . . . . . . . .                                          25
      Benefits Derived From Credit and Receivables Checks . . . . . . . . . . . . . . . . .                                      25
      Reviewing Accounts Receivable . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        26
      Potential Benefits From Other Pre-award Checks . . . . . . . . . . . . . . . . . . . . . .                                 27

APPENDIX B
Agency Responses To The Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28


                                                                v                                          Report No. 8100256
                    TABLE OF CONTENTS, cont.
APPENDIX C
Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 54




                                                               vi                                         Report No. 8100256
            ABBREVIATIONS
EPCRA   Emergency Planning and Community Right To Know Act of 1986
GAD     Grants Administration Division, Office of Grants and Debarment
GICS    Grants Information and Control System
OARM    Office of Administration and Resources Management
OIG     Office of the Inspector General
OPPTS   Office of Prevention, Pesticides and Toxic Substances
PE      Program Element (identifies sources of funds)
PCIE    President’s Council on Integrity and Efficiency
PO      Project Officer
PRC     Program Results Code (replaces PE, above)
SRO     Senior Resource Official




                             vii                          Report No. 8100256
[This page was intentionally left blank]




                  viii                     Report No. 8100256
             CHAPTER 1
             INTRODUCTION



Objective    EPA’s FY 1996 Federal Managers’ Financial Integrity
             Act Report to the President and Congress declared
             post-award oversight of assistance agreements and
             grants closeout material weaknesses. The objective
             of our audit was to review the Agency’s pre-award
             process (steps the Agency takes to award assistance
             agreements) to identify opportunities for
             improvement.


Background   Assistance is the transfer of anything of value for a
             public purpose of support or stimulation authorized by
             law.1 EPA program offices prepare assistance
             funding packages. Each package includes a funding
             order which identifies approved funding amounts and
             the project officer, a commitment notice which
             reserves funds, and a decision memorandum which
             recommends the award. Program offices are also
             responsible for programmatic and technical review of
             assistance award proposals.

             Within the Office of Administration and Resources
             Management (OARM), Office of Grants and
             Debarment, the Grants Administration Division (GAD)
             assures assistance application completeness by
             performing and documenting an administrative review
             of the assistance application. GAD senior managers
             are award officials for grants and cooperative
             agreements approved by EPA Headquarters program
             offices. Signature by the award official constitutes an
             offer from EPA to the applicant and obligates
             committed funds. The offer becomes an agreement




                   1
                    31 U.S.C. 6101.

                       1                            Report No. 8100256
                        when it is signed and returned by the applicant and
                        accepted by EPA.

                        Within EPA program offices, Senior Resource
                        Officials (SROs) are accountable for effective
                        resource management, including management
                        integrity, budget, financial management, acquisition
                        and assistance.2 The SRO is responsible for
                        ensuring adequate review of assistance funding
                        packages with emphasis on, among other things, use
                        of appropriate statutory authority, selection of the
                        proper funding instrument, the justification for
                        assistance agreements awarded noncompetitively,
                        content of the decision memorandum, and
                        qualifications of project officers (POs).3

                        Effective October 1, 1996, EPA required that to be a
                        PO for a grant, cooperative agreement or interagency
                        agreement, individuals must first successfully
                        complete the course, “Managing Your Financial
                        Assistance Agreement – Project Officer
                        Responsibilities.”

Scope and Methodology   This review was conducted from July 1997, to July
                        1998. The July 1997 universe of 1,118 EPA
                        Headquarters assistance agreements, taken from
                        EPA’s Grants Information and Control System
                        (GICS), consisted of all active assistance agreements
                        with nonprofit organizations and all active “X”-grants.4
                        Our judgmental sample of 30 assistance agreements
                        included at least one award from all EPA offices
                        headed by an Assistant Administrator, and two from
                        the Administrator’s Office. As part of our initial
                        fieldwork, we compared the grant-making language in
                         the cited statutes to the description of work to be


                                2
                                EPA Order 1130.2A, Senior Resource Officials and
                        Resource Management Committee, November 6, 1995,
                        paragraph 7(d).
                                3
                                Senior Resource Official Responsibility Statement, May
                        31, 1994, Attachment C.
                                4
                                  The “X” in X-grants, is a GICS code for surveys,
                        studies, investigations and special purpose grants.

                                    2                                  Report No. 8100256
                       performed, and concluded that eight awards lacked
                       statutory authority. To address this issue, we issued
                       a separate audit report, Statutory Authority for EPA
                       Assistance Agreements, on September 18, 1998.

                       To identify opportunities to improve the pre-award
                       process, we interviewed personnel in GAD
                       responsible for overseeing the assistance process,
                       and the POs for 27 assistance agreements awarded
                       between 1992 and 1997. We reviewed PO files to
                       determine whether they were conducting pre-award
                       reviews specified by Agency policy and project officer
                       training. Finally, we benchmarked EPA pre-award
                       practices against those used by other federal
                       agencies to identify problem recipients and issues
                       before new or additional assistance awards are
                       made.

                       We conducted our work in accordance with the
                       Government Auditing Standards (1994 Revision)
                       issued by the Comptroller General of the United
                       States. We reviewed Federal Managers’ Financial
                       Integrity Act controls related to the audit objective.
                       We did not evaluate controls over GICS, or the
                       quality or integrity of GICS data, because we only
                       relied on GICS data for sample selection.

Prior Audit Coverage   Over the years the OIG has issued numerous audit
                       reports of assistance agreements, but no previous
                       OIG reports focused exclusively on the assistance
                       pre-award process.




                                 3                             Report No. 8100256
                       CHAPTER 2
  Important Information Is Needed Before Assistance Is Approved



                        POs did not always negotiate workplans with well-
                        defined commitments, adequately determine and
                        document that costs submitted with assistance
                        applications were reasonable, or prepare decision
                        memoranda which contained all information required
                        to support recommendations for award. Neither POs,
                        nor those program officials reviewing and signing
                        assistance approval documents, were following
                        established guidance in these areas.

                        SROs, supervisors of POs and other assistance
                        approval officials are not usually required to attend
                        training. Therefore, they may not have recognized
                        that additional information was needed or have seen
                        the need to hold POs accountable. Expanded
                        training for those involved in assistance management
                        and enhanced oversight are needed.

                        EPA can use the pre-award approval process to
                        improve post-award oversight capabilities. A
                        complete funding package assists program officials,
                        including the SRO, in holding recipients accountable
                        for expected outputs, determining whether
                        expenditures are reasonable for the work performed,
                        and ensuring that funded activities are accomplished.


Workplans Should Be     When EPA receives an assistance application, GAD
Well-Defined            performs an administrative review, and then forwards
                        the application to the designated program official for
                        technical/programmatic review.5 The narrative
                        workplan serves as the applicant’s performance



                               5
                                Assistance Administration Manual, EPA Directive 5700,
                        1984 Edition, Chapter 12, paragraph 5(a).

                                   4                               Report No. 8100256
commitment and should describe, as accurately as
possible, what will be done, when it will be
accomplished, the applicant’s performance capability,
and the estimated costs.6 Agency guidance states
that an effective workplan will list expected outputs;
link outputs to funding; identify target dates and
milestones; require periodic reporting; and explain
how the activities will be accomplished.7 The PO’s
goal when negotiating a workplan should be to
negotiate a workable document containing well
defined commitments that foster accountability on
behalf of the recipient.8

We reviewed GAD files for 30 assistance awards.
Three workplans did not list expected outputs. None
of the five awards funded from more than one
appropriation linked outputs to funding. Thirteen
workplans did not include target dates and
milestones. Twenty-five did not require periodic
reporting, and two did not explain how activities
would be accomplished. Of the 30 workplans, 28
were missing one or more of these elements.

Because program offices were not adequately
evaluating workplans, the Agency’s ability to hold
recipients accountable for poor performance could be
limited. We spoke with an Agency official who
recalled a past struggle with an awarded grant having
a workplan which contained no expected outputs.
This individual stated it was hard to determine what
the grantee was supposed to be doing, and it would
have been equally difficult for the OIG to audit the
grant to see if the grantee produced what EPA paid
for. The Agency official believed that there was little
public benefit derived from this award. One
agreement in our sample included a special condition
allowing the recipient to submit a workplan 90 days


        6
         Ibid., paragraph 5(d)(4).
        7
         Managing Your Financial Assistance Agreements -
Project Officer Responsibilities, Third Edition, EPA 202-B-96-
002, October 1996, page 3.33.
        8
         Ibid., page 3.34.

            5                                 Report No. 8100256
                       after the date of award. The initial workplan was
                       issued at least one month late, and the final revised
                       workplan was received six months after the date of
                       award. For a period of time during which there was
                       no enforceable instrument with which to hold the
                       recipient accountable, the recipient spent $171,288.
                       The recipient’s first quarterly progress report showed
                       costs incurred under one task even though no
                       activities were performed.

                       POs are accepting workplans that limit the Agency’s
                       ability to perform effective post-award monitoring.
                       Approval officials and SROs should hold POs
                       accountable for negotiating workplans that are timely
                       and meet the requirements outlined in the PO training
                       manual. Workplans meeting these requirements will
                       provide useful information to enable the Agency to
                       more effectively manage assistance agreements
                       subsequent to award, and hold recipients
                       accountable for accomplishing funded activities.

Cost Reasonableness    POs are required and trained to determine cost
Should be Determined   reasonableness. According to the Assistance
and Documented         Administration Manual, the “reviewer must determine
                       whether all proposed project tasks are included in the
                       budget and must review each budget item for
                       reasonableness.”9 The Project Officer Training
                       Manual explains this requirement:

                              The PO is responsible for reviewing the
                              proposed budget against the
                              Narrative/Workplan to determine whether the
                              budget is reasonable from a programmatic
                              perspective. In making this determination, the
                              PO should consider the technical necessity for
                              and price reasonableness of proposed
                              personnel, travel, equipment, supplies,
                              procurements, and other items in the budget.
                              There is no one way to determine the
                              reasonableness of any particular item. If the
                              PO questions whether a particular item is


                              9
                               Assistance Administration Manual, EPA Directive 5700,
                       1984 Edition, Chapter 12, paragraph 5(b)(6)(b).

                                  6                               Report No. 8100256
                              “reasonably” priced, they should ask other
                              POs, call various suppliers, ask the [Grant
                              Management Office] for advice, or ask the
                              applicant how they arrived at the cost.

                       We found that POs did not adequately determine and
                       document that proposed costs were reasonable.
                       Sixteen of the 27 POs we interviewed indicated they
                       did no assessments of whether budgeted costs were
                       reasonable, and none of the project files that we
                       reviewed contained evidence that proposed costs
                       were reviewed against the narrative/workplan. The
                       most common reasons given for making no
                       assessments of cost reasonableness were POs: (1)
                       did not know it was their responsibility to do so, or
                       (2) thought it was the responsibility of the grant
                       specialists to make these determinations. EPA
                       employees who had been POs for a long time told us
                       that they relied on past experience as a PO or past
                       experience with similar types of grants.

                       SROs are charged with the efficient and effective use
                       of fiscal resources. Without adequate cost
                       reasonableness determinations prior to award, SROs
                       lack assurance that the level of funding is appropriate
                       for the work to be performed. The Office of Inspector
                       General (OIG) issued a report earlier this year that
                       addressed a similar concern.10 We found that under
                       a training assistance agreement, EPA did not always
                       know how many students were being trained, or how
                       much it was costing to train each student. We
                       reported that because POs did not compare cost
                       estimates to the number of students being trained,
                       the Agency was unaware of the wide disparities
                       among the agreements in the cost to train students
                       for similar work.

The Decision           The Decision Memorandum, forwarded by the
Memorandum Should Be   program office to GAD with the other components of
Complete               the assistance funding package (the funding order
                       and commitment notice), contains the program


                              10
                                 Audit Report No. E1XMF6-03-0224-8100070, “EPA’s
                       Training Assistance Agreements,” March 4, 1998, Chapter 3.

                                   7                             Report No. 8100256
office’s decision and justification for funding or
rejecting an assistance proposal.11 Various policies
and guidance either require or suggest decision
memorandum content. Required elements include:

    • a brief description of the project objectives;12
    • a summary of all reviews received on the
      project, and reconciliation of contrary views;
      justification for assistance agreements awarded
      noncompetitively; 13
    • why the award should be assistance (rather
      than procurement);14
    • the statutory authority, delegation of authority,
      and program element;15
    • foreign activities approval, if applicable;16
    • quality assurance/quality control, if
applicable;17
    • approval for human or animal subjects, if
      applicable,18 and
    • SRO approval, for project costs totaling $1
      million or more.19




       11
         EPA Order 5700.1, Policy for Distinguishing Between
Assistance and Acquisition, March 22, 1994, paragraph 4(c).
       12
            Assistance Administration Manual, Figure 15-3.
       13
            Ibid.
       14
         EPA Order 5700.1, Policy for Distinguishing Between
Assistance and Acquisition, March 22, 1994, paragraph 5(a)(2).
       15
            EPA Order 5730.1, paragraph 4(b)(1)(f).
       16
         Assistance Administration Manual, Chapter 7,
paragraph 1(c).
       17
          40 CFR Part 30.54 requires that grantees, whose
projects involve environmentally related measurements or data
generation, develop and implement quality assurance practices.
       18
            Research and Demonstration Grants, 40 CFR Part
40.135-2.
       19
         EPA Order 1130.2A, Senior Resource Officials and
Resource Management Committee, November 6, 1995,
paragraph 7(d)(7)(c).

              8                                Report No. 8100256
Decision memorandum elements suggested by
Agency guidance20 include:

     • a statement that the award does not duplicate
       other EPA funded efforts, or, if it does, why it
       should be funded;
     • the substantial federal involvement if the award
       is to be a cooperative effort;
     • justification of mixing appropriations, if
       applicable;
     • approval of pre-award costs, if applicable; and
     • explanation for workshops, conferences and
       symposia.

On July 19, 1996, the Acting Assistant Administrator,
OARM, issued to Assistant Administrators, Regional
Administrators, the Inspector General and the
General Counsel, a collection of nine Grants
Management Fact Sheets for Agency Leaders. Fact
Sheet Number 3, Improper Expenditure of Grant
Funds, pointed out that program leaders should
“assure that grant applications, including the
proposed budget and workplan are carefully reviewed
to prevent unnecessary and unreasonable costs.”
Fact Sheet Number 6, Acquisition vs. Assistance,
citing guidance dating back as far as December
1992, reminded Agency managers of the need to
distinguish between assistance and procurement.
Fact Sheet Number 9, Competition for Assistance
Agreements, advised program leaders to develop
justifications for assistance agreements awarded
noncompetitively. Despite these periodic reminders
from GAD, we find that program offices still submit
funding packages lacking the elements described in
this chapter.

Not all applicable elements were addressed in the
decision memoranda that we reviewed. Twelve did
not include the required statement that assistance,
not acquisition, was the appropriate funding
instrument. Seventeen did not indicate the


        20
         Managing Your Financial Assistance Agreement –
Project Officer Responsibilities, Third Edition, EPA 202-B-96-
002, October 1996, page 4.7.

             9                                Report No. 8100256
                          substantial federal involvement which would be the
                          basis for awarding a cooperative agreement rather
                          than a grant. Twenty-one of 26 noncompetitive
                          awards we reviewed did not include the required
                          justification for noncompetitive award in the funding
                          package. Of the five assistance agreements funded
                          by multiple appropriations, two lacked the justification
                          for mixed funding.

                          In response to the FY 1996 declaration of grants
                          closeout and oversight of assistance agreements as
                          material weaknesses, the Administrator asked each
                          SRO to perform a management effectiveness review
                          and report the results in their Federal Managers’
                          Financial Integrity Act assurance letters. The results
                          confirm our findings. On February 25,1998, the GAD
                          Director issued a memorandum to SROs discussing
                          the reviews and areas needing improvement,
                          including the content of decision memoranda. For
                          example, GAD noted that decision memoranda did
                          not contain the required determination to use
                          assistance rather than acquisition, and that
                          justifications for noncompetitive awards are
                          sometimes absent from grant funding packages. The
                          Director asked that SROs remind approval officials
                          and POs of the need to include this information in the
                          decision memorandum.

Additional Training and   POs were not preparing complete funding packages.
Oversight Are Needed      In reviewing these documents, SROs and approval
                          officials were not consistently requiring that POs: (1)
                          develop (if the assistance award is to be competed)
                          or negotiate (if the award is noncompetitive)
                          workplans containing milestones and outputs; (2)
                          determine cost reasonableness; or (3) prepare
                          decision memoranda which contain all the elements
                          enumerated above. Additional training could improve
                          the quality of funding packages.

                          The SRO is charged with specific training
                          responsibilities:

                              Designs and implements a resource management
                              training program aimed not only at staff with
                              direct contracts or assistance


                                   10                             Report No. 8100256
                           management responsibilities, but also [at]
                           managers of such staff by:

                       - conducting ad hoc training sessions for Project
                       Officers and Work Assignment Managers on new
                       policies and procedures affecting grants [and]
                       contracts management; [and]

                       - conducting training sessions aimed at the
                       management level.21

                       While most POs have received the required training
Management Plans Can   in assistance management, we know of no program
Enhance Post-Award     office that provides refresher training for POs, and
Oversight              only two program offices22 that have developed and
                       presented a grants management course for
                       supervisors.

                       There is also no Agency requirement for SROs to
                       receive training in assistance-related responsibilities.
                       The Chief of GAD’s Grants Policy, Information and
                       Training Branch told us that several years ago he
                       participated in training EPA’s Senior Executive
                       Service (SES) members in management of extramural
                       resources (SROs are members of the SES). He said
                       that senior executives were given the opportunity to
                       receive this training at one of three sessions, but the
                       training was not required and it was poorly attended.

                       While training may improve the ability of managers
                       and supervisors to perform effective oversight, it is
                       the SRO’s responsibility to see that the oversight
                       itself improves. The SRO Responsibility Statement
                       specifically addresses pertinent responsibilities as
                       follows:




                              21
                               SRO Responsibility Statement, May 31, 1994,
                       Attachment C.
                              22
                              The Office of Solid Waste and Emergency Response
                       (OSWER), and the Office of Research and Development
                       (ORD).

                                   11                            Report No. 8100256
    Contracts and Assistance Placement: Ensuring
    the quality of pre-award paperwork associated
    with assistance agreements, contracts and inter-
    agency agreements. This includes establishing
    systems for contract and assistance awards,
    overseeing those systems, and establishing
    office priorities for procurements and assistance
    agreements.

    Contracts and Assistance Management:
    Ensuring the soundness of contracts and
    assistance administration. This includes
    ensuring the availability of trained and
    experienced officials to manage and oversee
    contracts and assistance agreements; approving
    procedures to protect fiscal integrity; and
    ensuring proper control measures are used.

The Office of Water’s management effectiveness
review recommended that POs prepare, for any grant,
cooperative agreement or interagency agreement, a
post-award management plan. The plan, which
should be attached to the decision memorandum,
should state the actions the program will take to
effectively manage the assistance award, including
activities the PO will undertake on a regular basis to
monitor the recipient’s technical performance and the
rate of expenditure of funds. We believe that
developing such technical monitoring plans could
significantly improve post-award management.

Effective post-award management requires a
resource investment--time from the PO and money if
site visits are necessary. Increasingly, program
offices have acknowledged this and made
adjustments. One PO told us that in the past, while
working only two days per week, she was responsible
for 17 grants. Now, however, this same PO (still
working two days a week) is responsible for
monitoring five grants and interagency agreements.
We asked some POs to estimate the amount of time
spent on PO-related duties per grant. Estimates
ranged between 3 and 20 percent.




         12                           Report No. 8100256
                  There is no requirement that PO files contain
                  estimates of time and dollars necessary for effective
                  assistance management. We believe, however, that
                  assistance management would improve if, prior to
                  award, the PO and supervisor formally agree on an
                  estimate of time and money required to execute
                  oversight responsibility. This estimate, signed by the
                  PO and his/her supervisor, could be a part of the
                  assistance management plan. By identifying
                  oversight activities, the plan can provide the basis to
                  hold recipients accountable for expected outputs, and
                  for accomplishing funded activities.

                  Training for and oversight by managers and
                  supervisors, especially SROs and approval officials,
                  is critical to effective assistance management. Only
                  by understanding PO responsibilities and the reasons
                  for building specificity in workplans, assessing cost
                  reasonableness, and preparing complete decision
                  memoranda, can program managers provide effective
                  oversight. Without milestones and outputs, the
                  Agency limits its ability to hold grantees accountable.
                  Without justifications for noncompetitive award, the
                  Agency could give the appearance that it is giving
                  preferential treatment to a single assistance applicant
                  or that it is not encouraging competition to the
                  maximum extent practicable. Without determinations
                  of cost reasonableness, the Agency cannot
                  demonstrate that the level of funding is appropriate
                  for the work to be performed. Without post-award
                  monitoring plans, SROs cannot be assured that POs
                  will have the time and money available to adequately
                  execute oversight responsibilities. Without all of
                  these things, the Agency, and specifically the SRO, is
                  not providing effective management of extramural
                  resources.

Recommendations   The Acting Assistant Adminstrator for OARM, the
                  OCFO, and the Offices of Air and Radiation; Water;
                  Solid Waste and Emergency Response; Research
                  and Development; and Prevention, Pesticides and
                  Toxic Substances provided written comments on the
                  draft recommendations, which appear as Appendix B.
                  We also discussed our draft recommendations at the
                  September 23, 1998, exit conference. Based on the


                           13                            Report No. 8100256
                      written comments, discussions at the exit conference,
                      and our further analysis, we have revised most of our
                      draft recommendations, as described below.

Draft Report          We recommend that the Acting Assistant
Recommendation 2-1:   Administrator for Administration and Resources
                      Management direct GAD to take the lead in the
                      development of refresher and manager training
                      courses, and assist SROs in training all levels of staff
                      involved in assistance award and management.

Agency Response       GAD is currently preparing a One-Day Refresher
                      course for project officers with implementation
                      targeted for January 1999. Both Regional Grants
                      Management Offices and Program Offices are being
                      offered the opportunity to provide input, ensuring that
                      GAD is creating a comprehensive refresher course.
                      The course is designed to present new policies and
                      regulations, reinforce proper grants management
                      practices, and set the groundwork for continued
                      project officer certification. It will be updated annually
                      if warranted.

                      EPA manager training is a resource management
                      issue which has broad implications. The Resource
                      Management Committee is considering developing a
                      comprehensive and integrated training course for
                      Agency managers. OARM will actively participate
                      with OIG and OCFO to develop resource
                      management training for managers.

OIG Evaluation        The Agency response for PO training is acceptable.
                      The exit conference included additional discussion of
                      manager training. Representatives from all program
                      offices agreed that manager training was necessary.
                      Providing this training under the broader heading of
                      resource management (contracts, assistance and
                      fiscal) training as OARM suggests is a reasonable
                      approach. The OIG is assisting the Agency in
                      developing “Core Competencies.” This effort should
                      better define manager needs. GAD, as National
                      Program Manager, needs to aggressively promote (or
                      lead, in the case of stand-alone training) this effort.
                      Regardless of the instrument–grant specific training
                      or resource management training–managers need to


                               14                              Report No. 8100256
                       be trained in order to monitor the completeness and
                       correctness of grants funding packages. Since this
                       training has yet to be developed, the Agency, and in
                       particular the SRO, will continue to be vulnerable.
                       Grants may be funded that should not, or would not,
                       be funded given adequate oversight. In the interim,
                       some SROs have lowered the dollar threshold for
                       SRO review below the $1 million threshold
                       established by EPA policy, and some SROs have
                       designated knowledgeable staff to review assistance
                       packages. We also note that GAD will develop
                       guidance (see recommendation 2-2) explaining the
                       types of omissions which warrant returning funding
                       packages to program offices. This action should help
                       encourage funding package completeness.

Final Recommendation   We recommend that the Acting Assistant
2-1                    Administrator for OARM direct GAD to take the lead
                       in the development of PO refresher training courses.
                       The Agency’s response to the final report should
                       provide milestones for when the course will be
                       completed and the instructors trained.

Draft Report           We recommend that the Acting Assistant
Recommendation 2-2     Administrator for OARM direct GAD to ensure the
                       completeness of funding packages and return
                       incomplete assistance funding packages to the
                       program offices via the SRO.

Agency Response        Program offices agreed that assistance funding
                       packages with significant omissions should be
                       returned for correction, but did not agree that all
                       returned packages should go to the SRO. GAD
                       agreed to develop guidance on which types of errors
                       or omissions will cause packages to be returned to
                       the program offices.

OIG Evaluation         A revised recommendation follows.

Final Recommendation   We recommend that the Acting Assistant
2-2                    Administrator for OARM direct GAD to develop
                       guidance explaining the types of omissions which will
                       result in GAD returning incomplete assistance
                       funding packages to the program offices. Incomplete
                       packages valued below $1 million should be returned


                               15                            Report No. 8100256
                       to the approval official. Assistance funding packages
                       of $1 million or more should be returned to the SRO.

Draft Report           We recommend that Assistant Administrators require
Recommendation 2-3     SROs to train all levels of staff involved in assistance
                       awards. Until supervisor, manager and refresher
                       training courses are developed, require managers,
                       supervisors and POs to attend the PO training course
                       every three years.

Agency Response        There was universal consensus that those involved in
                       awarding assistance should be trained, but
                       disagreement over who should provide that training.
                       Some program offices believe this is a GAD
                       responsibility. Others believe that their requirements
                       are such that only they can adequately teach them.
                       GAD and program offices agree that the need for
                       more (refresher and manager) training will strain their
                       existing resources, and more resources have not
                       been made available.

OIG Evaluation         The findings in this report demonstrate the need for
                       an effective training program. It may be that the
                       Agency will be forced to identify some or all of this
                       training as appropriate for contractor support. (The
                       basic project officer course for contracts is taught by
                       a contractor.) Whatever method the Agency deems
                       most desirable, sufficient resources must be directed
                       to this effort.

Final Recommendation   We recommend that the Acting Assistant
2-3                    Administrator for OARM raise the need for additional
                       grants training to the Resource Management
                       Committee, including an estimate of the minimum
                       resources required to deliver training Agency-wide,
                       and options for delivering the training.

                       We recommend that the Acting Assistant
                       Administrator for OARM and the Chief Financial
                       Officer, as co-chairs of the Resource Management
                       Committee, inform program offices of the Committee’s
                       decision(s) regarding resources for grants
                       administration training and the method(s) of delivery.




                               16                             Report No. 8100256
Draft Report           We recommend that Assistant Administrators require
Recommendation 2-4     SROs to hold POs and approval officials accountable
                       for workplan specificity, adequacy of determinations
                       of cost reasonableness, and the completeness of
                       decision memoranda.

Agency Response        Program offices indicated that they already hold POs
                       and approval officials accountable, or that they didn’t
                       understand OIG’s expectations.

OIG Evaluation         The process improvements outlined in other
                       recommendations make this recommendation
                       unnecessary.

Draft Report           We recommend that Assistant Administrators require
Recommendation 2-5     SROs to require the program offices to develop an
                       assistance management plan prior to approval of an
                       award. At a minimum, management plans should
                       identify planned oversight activities, estimated PO
                       monitoring time and other funds (e.g. travel) required.

Agency Response        Program offices either disagreed with this
                       recommendation or found it confusing.

OIG Evaluation         At the exit conference, we discussed alternatives to
                       creating plans for each assistance award, including
                       management plans for groups of awards, or plans for
                       awards over a certain dollar threshold. While not all
                       program offices believe that post award management
                       plans are necessary for each award, there was
                       consensus that whatever is done post award, should
                       be coordinated with the Grants Management Offices’
                       monitoring efforts.

Final Recommendation   We recommend that the Acting Assistant
2-5                    Administrator for OARM direct GAD to work with the
                       program offices to develop a coordinated post-award
                       management strategy.




                               17                             Report No. 8100256
                          CHAPTER 3
                Assistance Agreements In One Office
                Cited Inappropriate Program Elements


                          Of 55 Environmental Justice Through Pollution
                          Prevention (EJP2) assistance agreements awarded
                          by the Office of Prevention, Pesticides, and Toxic
                          Substances (OPPTS) during FY 1997, 28 were
                          improperly funded using resources intended for other
                          purposes. Improper use of funds occurred because
                          of poor funds controls within OPPTS, because
                          OPPTS division directors acted to avoid carrying over
                          excess funds, and because the Grants Administration
                          Division’s “check and balance” process did not
                          identify the improper funding. This resulted in the
                          reprogramming of $1.9 million from authorized
                          purposes without required Congressional approval.

OPPTS Utilized Funds      A program element (PE) is a classification within
for Unintended Purposes   EPA’s program/budget structure that represents a
                          distinct program activity and identifies the source of
                          funds. The PE is supported by one or more
                          authorizing sections of law and must be associated
                          with the grant statutory authority.23 To identify the
                          PE’s distinct program activity, we reviewed the PE’s
                          authorizing sections of law and the PE description
                          submitted with the President’s budget. To decide
                          whether a grant was properly funded, we determined
                          whether the activities described in the recipient’s
                          workplan fell within the PE’s distinct program
                          activities.

                          Reprogramming is any movement of funds into or out
                          of a program element. EPA is required to inform
                          Congress of any reprogramming between $500,000
                          and $1 million, and is required to obtain
                          Congressional approval for any reprogramming in




                                 23
                                   EPA Order 5730.1, Policy and Procedures for Funding
                          Assistance Agreements, January 21, 1994, paragraph 3(l).

                                      18                             Report No. 8100256
excess of $1 million. These limitations apply to any
individual reprogramming or a series of
reprogrammings for the same purpose.24

Figure 1 on the next page shows 55 fiscal year 1997
EJP2 assistance agreements awarded by OPPTS.
We reviewed grant X826031 to the Council on the
Environment, Inc., one of nine grants funded from
program element BPS, OPPTS-EPCRA-HQ25. The
workplan involved intermediate and high school
students working with local industries to reduce lead
emissions; monitoring, letter writing, public education
and promoting energy conservation; using non-toxic
products; and identifying industrial polluters.

The EPCRA program element was established to
provide funds to maintain the Toxic Release
Inventory (TRI) and the chemical use inventory.
Activities funded in the Council on the Environment
grant do not fall within the scope of this PE.
Therefore, the EPCRA PE was not an appropriate
source of grant funds.

We reviewed the PE description (but not the grants)
for program element BV6, National Program
Chemicals (NPC), which indicates that the program
activities for this PE include risk management
activities with respect to lead, asbestos (helping
states with asbestos accreditation programs), PCBs
(permitting facilities for the storage and disposal of
PCB wastes), and other toxic chemicals of national
concern and impact; and characterizing human
exposure to, and sources of, dioxin. The only public
outreach mentioned is work to "improve the public's
understanding of the risks posed by lead."




       24
        FY 1997 Advice of Allowance Letter, April 13, 1997,
Attachment C.
       25
          “EPCRA” refers to the Emergency Planning and
Community Right to Know Act of 1986, which established
programs to provide the public with information on hazardous
and toxic chemicals in their communities.

            19                               Report No. 8100256
     Figure 1: FY 1997 ENVIRONMENTAL JUSTICE THROUGH POLLUTION
                   PREVENTION ASSISTANCE AGREEMENTS
                                                       No. of
Program Elements (Sources of Funds)                    Awards          Total Awarded
BV6: National Program Chemicals                          19               $ 1,301,762
BPS/PSX: OPPTS EPCRA-HQ                                   9                    626,789
V7X: Pollution Prevention                                26                 1,924,198
D9X: Pollution Prevention State Grants                    1                     99,998

                               The FY 1997 PE budget requests $2.2 million for
                               "Lead state assistance/environmental justice
                               initiative." However, there is no discussion of
                               environmental justice activities in the PE narrative.

                               We advised OPPTS of our opinion that, because the
                               Council on the Environment work plan does not fit
                               with the EPCRA program element distinct program
                               activities, the award should not have been funded
                               from EPCRA resources, and of our concern that
                               funding EJP2 activities from NPC resources also
                               appears questionable. EPA’s Office of General
                               Counsel advised OPPTS that unless the EJP2 grants
                               funded with NPC funds were for lead-related
                               purposes, the use of NPC funds for those grants was
                               not justified. OPPTS agreed that no EJP2 awards
                               should have been funded from EPCRA resources.
                               OPPTS will review whether EJP2 grants were for
                               lead-related activities, but expects to find few, if any,
                               that qualify for NPC funds.

                               Poor funds control contributed to the use of EPCRA
                               and NPC program elements to fund EJP2 awards.
                               First, OPPTS explained that prior to FY 1998 both the
                               NPC and Pollution Prevention divisions were
                               allocated environmental justice funds. Extramural
                               coordinators (who are responsible for ensuring that
                               funds from the proper PE are applied to extramural
                               funding instruments) had to read the PE descriptions
                               and the assistance work plans, and then decide
                               among several PEs to fund awards. There was little


                                         20                             Report No. 8100256
                         reference material and inadequate training for the
                         task. Second, one OPPTS representative explained
                         the desire to obligate year-end funds:

                             The previous fiscal year the Pollution Prevention
                             Division [which awarded the Council on the
                             Environment grant] had potential carryover funds
                             that the office (OPPT) decided would be best
                             spent on another immediate need, (rather than
                             rolling forward into the next fiscal year as
                             carryover). The pollution prevention folks agreed
                             to 'lend' this money to a sister division to be
                             applied to an instant need of that fiscal year with
                             the understanding the sister division would
                             reimburse PPD with a like amount the following
                             fiscal year.

                             The money used to reimburse PPD was from a
                             program element associated with
                             EPCRA-related activities and it was used by PPD
                             to fund a number of EJ/P2 grants (of which the
                             subject grant is one). Thus, the PE description
                             for the funds attached to this grant do not
                             correspond to the activities it supports.

                         EJP2 funding from the EPCRA and NPC PEs totals
                         $1,928,551. This clearly exceeds the $1 million
                         Congressional approval limit on reprogramming. In
                         effect, then, funds intended for maintaining the toxic
                         release and chemical use inventories, and funds for
                         NPC activities, were reprogrammed to the EJP2
                         program without the required Congressional
                         approval.

Grants Administration    The Grants Administration Division’s “check and
Division Controls Need   balance” function does not stop erroneously funded
Improvement              assistance agreements because GAD’s grants
                         specialists are not checking all necessary
                         information.

                         Using the Council on the Environment grant
                         discussed on page 13, we asked two GAD grants
                         specialists to walk us through their “check and
                         balance” function. They confirmed that:

                             • the OPPTS division director was delegated
                                authority to approve our test grant;


                                  21                             Report No. 8100256
     • the grant scope of work is consistent with the
       grant statutory authority, the Toxic Substances
       Control Act (TSCA);
     • object code 41.83 is the correct object code for
        this grant; and
     • media code “L,” representing Toxic
       Substances, is consistent with an award from
       OPPTS.26

The specialists explained that since the grant
package passed all these tests, GAD would approve
the award. But, as explained above, even OPPTS,
which issued the grant, does not believe that the
grant is properly funded.

GAD’s process leads to incorrect conclusions
because it doesn’t check whether the assistance work
plan fits within the program element’s “distinct
program activity.” This allows program elements to
fund activities other than those for which the program
element was established. While checking the
delegation of authority, grant statutory authority, and
object codes all contribute to ensuring that awards
are properly executed, checking media codes does
not, because there is no way to identify errors. GAD
has no policies or procedures that define improper
program element/media code combinations. When
we asked the grants specialists how they knew that
media code “L” was consistent with an award from
OPPTS, they said that it was just common sense.

As noted above, Order 5730.1 states that program
elements are supported by authorizing sections of
law. The grants specialists told us that they do not
check the section of law. They, therefore, cannot
determine whether a proposed work plan fits within
the PE’s distinct program activity.




        26
          All EPA activities and resources fall into “media”
categories, e.g., air, water quality, hazardous waste, pesticides,
toxic substances and radiation. EPA’s planning and budget
structure sorts resources by authorizing legislation,
appropriation, media, functions, subactivities, budget elements,
and program elements.

             22                                 Report No. 8100256
                     Effective October 1, 1998, the Agency plans to
                     implement a revised budget structure which will
                     replace PEs with Program Results Codes (PRCs).
                     PRCs tie the Agency’s operating plan to Agency
                     goals and objectives, and tie spending to Agency
                     subobjectives. GAD suggests that because of this
                     change, all references to PEs are outdated.

                     The reprogramming issue described in this report is
                     not resolved by the new structure. FY 1999 accounts
                     will use a crosswalk of the existing PE codes to new
                     PRC codes, and the use of PEs to track funds
                     appropriated prior to FY 1999 may continue for some
                     time. Whether funds are tracked by PEs, PRCs, or a
                     combination of both, it will be necessary to ensure
                     that funds are spent only for intended purposes.

                     Both OPPTS and GAD point out that program offices
                     are responsible for certifying funds. Both believe that
                     the responsibility to ensure the correctness of PEs (or
                     PRCs) should be assigned to program offices. Our
                     recommendation reflects this position.

Corrective Actions   In response to our review, the OPPTS SRO initiated
Taken                an internal review of its EJP2 awards. OPPTS told us
                     (we did not review their study) that since its
                     environmental justice program began in 1995,
                     Congress authorized, and OPPTS spent, $10.2
                     million. So although spending has not always come
                     from the correct source, overall spending on the
                     environmental justice program, and such other
                     programs as the TRI, has been at authorized levels.

                     For FY 1998, OPPTS created a computerized project
                     table. Each extramural project is assigned a project
                     code, which maps to program elements. OPPTS staff
                     can enter a project code at their computers, which will
                     call up a one page description of the project and
                     identify the proper program element. Extramural
                     coordinators no longer have discretion on funding;
                     the project description identifies the appropriate
                     program element. In addition, OPPTS provided
                     training for extramural coordinators. If this process is
                     applied as intended, it should prevent any future
                     misapplication of funds.




                              23                             Report No. 8100256
                  Finally, OPPTS has alerted EPA’s Budget Division of
                  the improper reprogramming noted in this report. The
                  Budget Division will advise OPPTS on whether to
                  inform Congress of “de facto” reprogramming.

Recommendation    We recommend that the Acting Assistant
                  Administrator for Administration and Resources
                  Management:

                  3-1          Require the Grants Administration
                               Division to rewrite EPA Order 5730.1 to
                               assign responsibility for ensuring the
                               use of correct program elements or
                               program results codes exclusively to
                               program offices.

Agency Response   The Agency agreed with this recommendation.




                          24                           Report No. 8100256
                         APPENDIX A
                           Other Matters



Screening Recipients      EPA’s pre-award screening includes checking the
Can Prevent Fraud,        General Services Administration’s Suspension and
Waste and Abuse           Debarment Listing, and coordinating awards with
                          other federal agencies where appropriate. A review
                          by EPA’s Office of General Counsel (OGC) is
                          provided when requested. In general, OGC reviews
                          awards when there are issues involving using a grant
                          versus a contract, conflict of interest or allowable
                          costs. Neither GAD nor the program offices review
                          Dun & Bradstreet or similar credit checks, or check
                          internal accounts receivable, before awarding
                          assistance agreements, except in cases where the
                          Suspension and Debarment Office believes such
                          information would be helpful in the course of their
                          work (generally post award).

                          The President’s Council on Integrity and Efficiency
                          (PCIE) reported in January 1998 that prior to
                          awarding assistance agreements, of 22 agencies
                          surveyed, 11 ran credit checks on potential
                          recipients, and 10 performed checks of internal
                          accounts receivable listings. Other significant pre-
                          award checks reported involved Office of General
                          Counsel reviews, financial capability reviews and
                          financial cost analysis. The PCIE point of contact
                          told us that the combination of credit checks,
                          accounts receivable checks, and OIG/OGC checks
                          helps agencies combat fraud, waste and abuse in
                          awarding discretionary grants, loans, loan guarantees
                          and cooperative agreements.

Benefits Derived From     The Department of Commerce has identified potential
Credit and Receivables    applicants who have unresolved audit problems, owe
Checks                    money to Commerce, have a criminal history, or have
                          internal management or performance problems which
                          could negatively impact grant projects. Commerce
                          OIG’s March 1997 semiannual report highlighted that




                                  25                           Report No. 8100256
                     of 552 proposed awards, 19 had “major deficiencies”
                     affecting the ability of the proposed recipients to
                     maintain proper control over federal funds. Of these:

                                                                  Award Amount
                         • 14 recipients were placed on
                              a cost-reimbursement basis     $9,475,342
                         • 4 awards were delayed                648,141
                         • 1 inserted special award conditions 500,000

                     EPA might identify similar problems if the Agency
                     conducted credit checks on at least a selected
                     sample of potential recipients.

Reviewing Accounts   The Debt Collection Improvement Act of 1996
Receivable           enhances administrative offset authority and bars
                     delinquent debtors from obtaining federal credit. It
                     defines administrative offset as the withholding of
                     money payable by the United States to, or held by the
                     United States for, a person to satisfy a claim. Claims
                     listed in the Act include payments disallowed by
                     audits performed by the Office Inspector General of
                     the agency administering the program.27

                     Reviewing accounts receivable reports can help to
                     identify grant recipients who may be delinquent in
                     their payments to EPA and therefore be subject to
                     administrative offset. For example, EPA reported for
                     the Period April 1, 1997, through September 30,
                     1997, 23 audits disallowing $7,911,158 from
                     construction grants, Superfund grants and other
                     program grants.28

                     An argument for checking accounts receivable prior
                     to assistance award is:

                         • Grants closeout has been declared a material
                           weakness. One reason for slow closeout is




                            27
                              Public Law 104-134, §31001(z)(1).
                            28
                               Management’s Semiannual Report to Congress on
                     Audits for the Period April 1, 1997 Through September 30, 1997.

                                 26                               Report No. 8100256
                              the grantees' failure to submit final performance
                              and financial reports.
                              • The Debt Collection Improvement Act of 1996
                              requires agencies to refer delinquent receivables
                              to Treasury for collection.
                              • Administrative offset (or the threat of it) can be
                              a tool to force grantees to clear up outstanding
                              reports on old grants. Clearing up these reports
                              will contribute to resolving the grants closeout
                              material weakness, and to Agency compliance
                              with the 1996 debt collection requirements.

Potential Benefits From   The PCIE report points out that the Department of
Other Pre-award Checks    Labor (DOL) and Social Security Administration
                          perform some type of financial capability review on
                          potential recipients. DOL pre-screening has resulted
                          in termination of current awards, imposing special
                          conditions on grantees, opting to not renew option
                          years, and the use of advance agreements. The
                          report also points out that the Department of Defense
                          withholds new awards until all delinquent financial
                          performance reports on prior awards have been
                          received.

                          We believe that EPA should consider adopting some
                          or all of these pre-screening techniques to prevent
                          problems.




                                   27                             Report No. 8100256
                                 APPENDIX B
                    Agency Responses To The Draft Report




                                       September 15, 1998


MEMORANDUM

SUBJECT:       Response to OIG’s Draft Audit Report on Pre-Award Management of EPA
               Assistance Agreements Draft Audit Report No. E1FMB8-11-0001

FROM:          Alvin M. Pesachowitz
                      Acting Assistant Administrator

TO:            Elissa R. Karpf
                       Deputy Assistant Inspector General
                         for External Audits (2421)

Thank you for the opportunity to provide comments on the Draft Audit Report on Pre-Award
Management of EPA Assistance Agreements E1FMB8-11-0001. We are eager to work with the
Office of Inspector General (OIG) to improve the grants management function. We have
compiled the following comments from the National Program Offices for Air and Radiation
(OAR), Research and Development (ORD), Solid Waste and Emergency Response (OSWER),
and Water (OW).

RESPONSE TO RECOMMENDATIONS

Recommendation 2-1 (to Acting Assistant Administrator for OARM):

CDirect GAD to take the lead in the development of refresher and manager training courses, and
assist SROs in training all levels of staff involved in assistance award and management.

OARM Response:

GAD is currently preparing a One-Day Refresher course for project officers with implementation
targeted for January 1999. Both Regional Grants Management Offices and Program Offices are
being offered the opportunity to provide input, ensuring that GAD is creating a comprehensive
refresher course. The course is designed to present new policies and regulations, reinforce proper

                                               28                               Report No. 8100256
grants management practices, and set the groundwork for continued project officer certification.
It will be updated annually if warranted.

EPA manager training is a resource management issue which has broad implications. The
Resource Management Council is considering developing a comprehensive and integrated training
course for Agency managers. OARM will actively participate with OIG and OCFO to develop
resource management training for managers.

AA Responses:

OAR agrees that GAD should take the lead in the development of management training through
the creation of a workgroup, comprised of program and regional office representatives. Program
offices who wished to do so could then expand the training beyond the basics outlined by the
workgroup. OAR additionally agrees that GAD should provide assistance to SRO staff in training
all of its employees. ORD has developed it’s own training for managers, but agrees that GAD
should be assigned responsibility for developing a refresher course. OW concurs with this
recommendation.

Recommendation 2-2 (to Acting Assistant Administrator for OARM):

•   Direct GAD to ensure the completeness of funding packages and return incomplete
    assistance funding packages to the program offices via the SRO.

OARM Response:

OARM disagrees with this recommendation in part. In most cases, the omissions are minor, such
as the field of science code or a signature on a document. GAD maintains that in these cases it is
more productive for the grants office to contact the program office to obtain the code, or the form
with the signature. On the rare occasion when there is a substantive problem, such as when the
scope of work is clearly not authorized by statute, or when the use of an assistance agreement
versus a contract is in question, GAD agrees that packages should be returned to the SRO or their
designee. Before this process begins, GAD will identify the possible situations and practices, and
will communicate this with the grants offices and program offices to ensure consistency and
clarity.

As a result of the Management Effectiveness Reviews (MERs) conducted by the program offices
and GAD in FY 1997, it was determined that funding packages were often not complete. On
February 25, 1998, Gary Katz, Director of the Grants Administration Division, sent a
memorandum to the SROs on the matter of assistance agreements and funding packages. This
memorandum addressed the two most common errors - missing justification of awarding an
assistance agreement vs. a contract, and missing justification for not competing a grant in the
decision memorandum. The memorandum also included a request that SROs remind Approval
Officials and POs to ensure a complete funding package with a comprehensive decision


                                                29                               Report No. 8100256
memorandum. As a result of this memorandum, the quality of decision memoranda submitted to
GAD has improved.

AA Responses:

OAR agrees that packages should be returned to the programs; however, not through the SRO
except for serious problems. ORD concurs as well, but believes that packages should be returned
to a delegated official other than the SRO.

Recommendation 2-3 (to Assistant Administrators):

•   Train all levels of staff involved in assistance awards. Until supervisor and manager and
    refresher training courses are developed, require managers, supervisors, and POs to attend
    the PO training course every three years.


AA Responses:

ORD, OAR and OSWER and OW disagree with this recommendation. The program offices
support the need to train managers and for project officer refresher training. However, as ORD
notes that it would be redundant for project officers to sit through the 3-day course until the
refresher course is developed. Program offices are aware that GAD plans to complete the one-
day refresher course (see recommendation 2-1), and intend to offer the course as soon as the
materials are available. The course is designed for project officers and contains more detail than
what is needed for supervisors and managers. OAR and OW agree with the recommendation in
2-1 that GAD develop a shorter course to meet the needs of managers. OSWER and ORD have
developed their own manager training. OSWER has provided this training to its managers as well
as the Senior Resource Official. ORD has scheduled its training for managers for this year.

OW makes an additional recommendation that OARM support GAD in building a permanent
training staff to serve the Agency’s assistance training needs.

Recommendation 2-4 (to Assistant Administrators):

•   Hold POs and approval officials accountable for workplan specificity, adequacy of
    determinations of cost reasonableness, and the completeness of decision memoranda.

AA Responses:

OAR and OSWER noted that the Agency already holds POs and Approval Officials accountable
for their actions regarding assistance agreements. OSWER added that training for POs and
managers outlines their responsibilities and accountability. OW concurs with this
recommendation with comment. OW notes that neither the Assistance Administration Manual


                                                30                               Report No. 8100256
nor the Project Officer Training Manual constitute training for project officers on determining
cost reasonableness. It therefore recommends that training directed at determining cost
reasonableness be incorporated into the Project Officer’s training. (Note: OARM is currently
drafting a policy on cost analysis that will address in part the issue of cost reasonableness.)
ORD notes that the report states that costs were not being evaluated adequately and were not
being documented. ORD addresses the concern that contracts rely on competition or negotiation
to ensure that the government gets value for its money. However, in assistance agreements, the
recipients are doing the work for their own benefit, not for the government, and as such there is a
strong incentive for good management. ORD files may not have the same level of cost analysis
seen in contract files; however, review does take place. For example, during peer review,
evaluation criteria may include a note on reasonableness of the cost, and is documented in peer
review comments, along with project officer review and comments.

Recommendation 2-5 (to Assistant Administrators):

•   Require the program offices to develop an assistance management plan prior to approval of
    an award. At a minimum, management plans should identify planned oversight activities,
    estimated PO monitoring time and other funds (e.g. travel) required.

AA Responses:

OAR and ORD strongly disagree with this recommendation, and ORD suggests that it be deleted.
OAR feels that the agency should not commit to the development of a management plan at this
time. SROs should be given adequate time to develop a strategy for management improvement.
The MERs conducted by program offices in FY 1997 provided them the opportunity to discover
their own weaknesses and work to improve their assistance agreement management. OAR
believes that program offices should have the opportunity to determine if this work has resulted in
improvement, before they have to develop management plans.

ORD points out decision memoranda and funding orders cover their plans for EPA’s involvement
in an agreement, including technical and financial monitoring, and includes a grant condition to
address the progress report requirements. ORD is concerned that a management plan for
assistance agreements could be confused with a similar plan now required for contracts. Unlike
contracts management, the focus in management of assistance agreements is to aid the recipient to
reach its own goals in a non-intrusive manner.

OSWER and OW note that the recommendation is somewhat confusing. The report states that
the IG recommends that POs develop a management plan for each grant and cooperative
agreement, and references OW’s current practice of requiring post award management plans for
each assistance project. However, the recommendation itself specifies that program offices
develop a plan without being specific as to whether the “plan” refers to a plan on a grant-by-grant
basis or to a broader plan for each program office. OSWER would support assistance



                                                31                                Report No. 8100256
management plans for each award as long as there would be a general form for POs to use as a
tool to ensure standardization. OW suggests that this recommendation needs to be clarified.

OARM has circulated a draft policy for review by the program offices. It suggests the
development of officewide management plans for assistance agreements. Therefore, OARM
would support a requirement for program-wide post award management plans.

Recommendation 3-1 (to Acting Assistant Administrator for OARM):

•   Require Grants Administration Division to rewrite EPA Order 5730.1 to assign responsibility
    for ensuring the use of correct program elements or program results codes exclusively to
    program offices.

OARM Response:

GAD concurs with this recommendation and will make the necessary changes to EPA Order
5730.1 by November 15, 1998.

AA Response:

OW concurs with this recommendation; however, notes that it seems to be inconsistent with
current practice that the Grants Administration Division serves as a “check and balance” for
ensuring that assistance is awarded with appropriate funding and the proper statutory authority.

GENERAL COMMENTS

In addition to comments on the recommendations, ORD and OW had additional comments
regarding the report. What follows is a summary, the full text of their comments can be found in
the attachments. ORD notes that it would be helpful to have a listing of the actual grants that
were reviewed for this report. They also indicate that some Agency guidance is not current, and
the report fails to mention the requirements of 40 CFR Part 30 which provides many of the
standards followed by the program offices for payment and monitoring. ORD voices a concern
that the report needs more clarity on the relationship that EPA has with an assistance agreement
recipient, as opposed to a contract. This concern carries over to the comments made in the report
regarding workplans. ORD believes the report expects workplans for assistance agreements
should be held to the same standards as contracts, which is inaccurate.

OW noted that the audit report could be strengthened by an additional recommendation. This
would be to recommend that the Assistance Administration Manual (AA manual) be updated.
The AA manual was cited several times in the report; however, the PO training manual has
evolved into the resource for project officers in implementing EPA’s assistance policies and
procedures because it is the most current source of information.



                                                32                               Report No. 8100256
We have attached for your information all of the comments sent to OARM from the Assistant
Administrators. Thank you again for providing us with the opportunity to comment on the Draft
Report. If you or your staff have any questions or need additional information, please contact
Bruce Feldman at 202-564-5308.

Attachments

cc: Senior Resource Officials and Audit Liaisons:
     Office of the Administrator
     Office of Administration and Resources Management
     Office of Air and Radiation
     Office of Enforcement and Compliance Assurance
     Office of International Activities
     Office of Policy, Planning and Evaluation
     Office of Prevention, Pesticides and Toxic Substances
     Office of Research and Development
     Office of Solid Waste and Emergency Response
     Office of Water
    Chief Financial Officer
    Comptroller
    Associate General Counsel, Finance and Operations Law Office
    Director, Office of Grants and Debarment




                                              33                              Report No. 8100256
                                      September 8, 1998



MEMORANDUM

SUBJECTS: OAR Comments on Draft Audit Report, “Pre-Award Management of EPA
          Assistance Agreements

FROM:         Jerry Kurtzweg, Director
              Office of Program Management Operations

TO:           Gary Katz, Director
              Grants Administration Division

   OAR has reviewed the draft audit report and offers the following comments on behalf of
OAR’s Senior Resource Official.

Recommendation 2-1. Refresher and Management Training: OAR agrees that both Project
Officer refresher and management training is needed and GAD should take the lead in its
development. While GAD has already taken the lead in development of the refresher training,
OAR also recommends GAD Chair a workgroup, comprised of program office and regional
representatives, to develop uniform agency-wide training for managers. If program offices wish
to expand management training beyond the basics outlined by this workgroup, they could do so.
However, without this workgroup, there is no way to ensure consistency in management training.
We also agree that GAD should assist SRO staff in training its employees. At present, no OAR
employees are being accepted for GAD-sponsored courses. We are at a point where we do not
have sufficient number of employees requiring training to warrant a separate class. These should
be allowed to sign up for GAD’s course so SRO staff can focus on the many other demands being
placed on them by OARM. Because of these many demands, OAR cautions GAD to be careful in
answering this recommendation not to set an overly ambitious schedule for this training.

Recommendation 2-2. Completeness of Funding Packages: We agree that incomplete packages
should be returned to the programs. However, unless there are serious problems with the
packages, they should not routinely be sent to the SRO.




                                               34                              Report No. 8100256
Recommendation 2-3. Train all levels of staff: We do not agree with the IG’s recommendation
that managers take the three-day course until such time as the managers training course is
completed.

Recommendation 2-4. Hold POs and Approval Officials Accountable: OAR believes the Agency
already holds its POs and Approval Officials accountable for their actions in both the contracting
and grants arena. It is unclear what specifically the IG is looking for with this recommendation.

Recommendation 2-5. Develop an Assistance Management Plan: OAR does not agree with this
recommendation and has serious reservations with GAD’s proposed post-award management
draft policy. While the Agency does need to improve its post-award management, OAR does not
feel the agency should commit to the development of a management plan at this time. We agree
that managers may not understand the time demands placed on grants project officers and feel this
should be a significant part of the management training. OAR would recommend that OARM
agree in principle with the IG recommendation, but give the SROs adequate time to develop an
overall strategy for management improvement. OAR is not comfortable agreeing with the
requirement of management improvement plans, especially in light of the strong comments we are
developing in response to GAD’s post-award management policy.

cc: Beth Craig
    Dick Wilson



(File:f:paaudit.jk)




                                                35                               Report No. 8100256
                                        September 9, 1998


MEMORANDUM

SUBJECT:       Comments on Draft Audit Report No. E1FMB8-11-0001 - Pre-Award
               Management of EPA Assistance Agreements

FROM:          Dana M. Minerva, Deputy Assistant Administrator for Office of Water
                     And Senior Resource Official

TO:            Alvin M. Pesachowitz, Acting Assistant Administrator
               Office of Administration and Resources Management

     I am forwarding the following comments from the Office of Water (OW) on the draft audit
report on the pre-award management of EPA assistance agreements. OW strongly supports any
efforts to strengthen the management of the Agency’s extramural assistance resources. The audit
report notes that we have already implemented internal management policies and training
requiring all OW project officers to prepare post award management plans for all assistance
agreements and Interagency agreements awarded from Headquarters.

    My comments focus on recommendations 2-3, 2-4, 2-5, and 3-1 - recommendations directly
impacting the responsibilities of the Senior Resource Officials.

Training
     Recommendation 2-1 directs GAD to take the lead in the development of refresher and
manager training courses, and to assist SROs in training all levels of staff involved in assistance
award and management. The OW concurs with this recommendation. Having staff that are well-
trained in the rules, policies, and practices of managing these assistance agreements is key to
carrying out our responsibility to the American taxpayer to fund the best projects possible with
Federal assistance dollars.

     Recommendation 2-3 is directly related to recommendation 2-1. It places the responsibility
for delivering assistance training directly on the Program Office. It recommends that the Assistant
Administrators require SROs to train all levels of staff involved in assistance awards and it
recommends that until the manager’s training and the refresher courses are developed, that
managers and supervisors attend the PO training course every three years. As I stated, the OW
strongly supports training managers and believes project officer refresher courses are necessary.
However, I believe the primary responsibility for delivery of this training belongs in OARM,
specifically the Grants Administration Division (GAD). When the Agency first introduced the


                                                36                                Report No. 8100256
assistance project officer training requirement in 1995, there was a tremendous backlog of
assistance project officers in the Agency needing training. At that time, the Program Offices
agreed to OARM’s approach to team-teach these courses to reduce the backlog (March 13, 1995
Memorandum from Sallyanne Harper to Senior Resource Officials). That agreement has resulted
in the OW conducting 11 two-day project officer training sessions in two years without any
additional resources. Those of us who agreed to this approach have found that we also have to
purchase the training manuals. (GAD supplies these manuals when they teach the course.) The
additional refresher and manager training courses added to the basic project officer training course
will expand OW’s training responsibilities beyond its abilility to deliver. I believe it is time to
revisit the March 13, 1995 agreement, and I recommend that OARM support GAD in building a
permanent training staff, similar to that of OARM’s Office of Acquisition Management, to service
the Agency’s assistance training needs. Creating a central training unit within the Grants
Administration Division would appear to be a more efficient use of resources than creating one
within each Agency Program Office. In addition, under the current system only some of the
Program Offices (OAR, OPPTS, OW, and OSWER) do their own training, while GAD provides
training for the remainder of the Agency’s project officers.

        The second part of recommendation 2-3 suggests managers and supervisors attend the
project officer training course every three years until the Agency has developed supervisor and
manager training courses. OW nonconcurs with this segment of the recommendation. First, the
Basic Project Officer training course is designed for assistance project officers. The level of detail
on assistance processes and procedures is far more comprehensive than what is needed for direct
supervisors and managers. Secondly, the length of the basic project officer training course (2 ½
days) will be problematic for managers particularly when so little of the material is necessary for
them to carry out their responsibilities. I would support a recommendation requiring OARM to
immediately develop a shorter course tailored to the needs of managers and supervisors. OW
would be willing, in concert with others, to provide contract dollars to support developing the
course.

Cost Reasonableness
     Recommendation 2-4 holds project officers and approval officials accountable for workplan
specificity, adequacy of determinations of cost reasonableness, and the completeness of the
decision memoranda. The OW concurs with this recommendation with the following comment:
On Page 4, the audit report states “POs are required and trained to determine cost
reasonableness.” The report then references the Assistance Administration Manual and quotes
the Project Officer Training Manual’s explanation of the “reasonableness” requirement. We do
not believe that either the Assistance Administration Manual reference nor the paragraph in the
Project Officer Training Manual constitute training for project officers on determining cost
reasonableness. I recommend that the Inspector General’s Office strengthen the recommendation
by requiring that more comprehensive training directed at determining cost reasonableness be
incorporated into the Project Officer’s training course.




                                                 37                                 Report No. 8100256
Assistance Management Plans
     Recommendation 2-5 recommends that Assistant Administrators require SROs to require the
program offices to develop an assistance management plan prior to approval of an award. This
recommendation, as stated, is confusing. Page 9 of the report references the Office of Water’s
practice of requiring post award management plans for each individual assistance project. Are
individual post-award management plans being recommended in 2-5? If so, I suggest the
recommendation be amended as follows: “Require the individual project officers to develop an
assistance management plan...........” If the assistance management plan recommended is intended
to be broader than individual project officer plans, then the recommendation should be clarified.

Responsibility for Correct Program Results Codes
    Recommendation 3-1 recommends that EPA Order 5730.1 be rewritten to assign
responsibility for ensuring the use of correct program elements or program results codes
exclusively to program offices. The Office of Water concurs with this recommendation.
However, the recommendation seems to be inconsistent with the current practice that the Grants
Administration Division serves as a “check and balance” for ensuring that assistance is awarded
with the appropriate funding and with the proper authority.

Other
      Finally, I would like to note that I believe the audit report could be strengthened by adding
one final recommendation. In several places, the report references the Agency’s official policy
directive on assistance management - the Assistance Administration Manual. I am concerned that
this reference is often made by the Inspector General to a manual that is very outdated for lack of
maintenance. The reality is that the Project Officers Training Manual has evolved into the
resource of preference by project officers and others because it contains the most current
information regarding implementing EPA’s assistance policies and procedures. Following the
1997 Management Effectiveness Review, the OW recommended that OARM develop a
Handbook of Procedures that could be used as a desk reference for all assistance project officers
and managers to “bridge the gap” between a formal assistance administration manual and a
training manual. I am resolute in my belief that the Agency could improve the overall
management of its extramural assistance funds if such a tool existed. I also believe that updating
the Assistance Administration Manual should be a priority for OARM/GAD rather than leaving
the Agency vulnerable to error by forcing reliance on a training manual for guidance. I suggest
that GAD follow the model OARM’s Office of Acquisition Management uses in developing and
maintaining their Contracts Management Manual.

     Thank you for the opportunity to comment on the report. If you have any questions
regarding our comments, please contact me directly at 260-5700 or Ellen Haffa on my staff at
260-3617.

cc: Gary Katz
    Beth Craig



                                                38                                Report No. 8100256
                                       September 4, 1998




MEMORANDUM

SUBJECT:      Comments on OIG Draft Audit Report: Pre-Award Management of EPA
              Assistance Agreements (No. E1FMB8-11-0001)

FROM:         Timothy Fields, Jr.
              Acting Assistant Administrator

TO:Alvin M. Pesachowitz
            Acting Assistant Administrator
            Office of Administration and Resources Management


    My staff has reviewed the Inspector General’s Draft Audit Report: Pre-Award Management
of EPA’s Assistance Agreements. We have the following comments.

<   Recommendation 2-3. This recommendation would require all managers to take the
    project officer assistance agreement training course until GAD develops a course specifically
    designed for managers. OSWER has already developed and provided training for its
    managers including the Senior Resource Official. We do not believe that it is a good use of
    resources to require managers to take the PO training course since we have already provided
    training. We plan to offer additional management training once the new course materials are
    available.

<   Recommendation 2-3. This recommendation would require project officers (POs) to
    retake the assistance agreement training course every three years until the one-day refresher
    course is developed. It is our understanding that GAD has nearly completed the
    development of the PO refresher course, therefore, we don’t believe it makes sense to require
    POs to retake a three day course when the new course will soon be available. OSWER plans
    to offer the refresher course once materials are available.

<   Recommendation 2-4. OSWER will continue to hold POs and Approval Officials
    accountable for work plans, costs, and decision memorandums. OSWER has provided
    training to POs and managers which outline their responsibilities and accountability.




                                               39                               Report No. 8100256
<   Recommendation 2-5. The wording in this recommendation is confusing. Based on the
    verbiage in the report, it would appear that the IG is recommending that POs develop
    assistance management plans for each grant and cooperative agreement awarded. The
    recommendation specifies that the “program office” develop an assistance management plan
    which is not discussed in the body of the report. If the Agency requires the use of assistance
    management plans for each award, as an internal control mechanism, we would support an
    Agency wide tool that all POs can use. Specifically, a general form would be helpful to the
    POs and provide the standardization needed to be an adequate internal control mechanism.
    We would support flexibility built in for POs.

     Thank you for the opportunity to comment. If you have any questions, please contact
Elizabeth Harris, OSWER Audit Liaison, at 260-7323.

cc: Dev Barnes
    Elizabeth Harris
    Julianne Edmondson
    Bernie Davis
    Judy Vanderhoef
    Gary Katz




                                               40                                Report No. 8100256
                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                  WASHINGTON, D.C. 20460


                                                                                     OFFICE OF
                                                                             RESEARCH AND DEVELOPMENT



                                       September 8, 1998



MEMORANDUM

SUBJECT:       Response to OIG Draft Report of Audit No.E1FMB8-11-0001
               Pre-Award Management of EPA Assistance Agreements

FROM:          Lek Kadeli, Acting Director James O. Morant for
               Office of Resources Management and Administration (8102R)

TO:            Gary M. Katz, Director
               Grants Administration Division (3903R)


Purpose

    This memorandum responds to the Office of Inspector General's (OIG’s) request for
comments on Draft Report of Audit No. E1FMB8-11-0001, Pre-Award Management of EPA
Assistance Agreements, dated August 14, 1998.

Discussion

    In general, we find the draft report reasonable and agree with the OIG’s objectives of
improving the management of our assistance agreements. However, we have a number of
comments which, if addressed, can improve the quality and accuracy of the report. These detailed
comments are attached and speak to the primary report findings and recommendations.

    We appreciate the opportunity to respond to this draft report. Should your staff have any
questions, or require additional information, please contact Cheryl Varkalis on (202) 564-6686 or
Linda Ross on (202) 564-6683.




                                               41                               Report No. 8100256
                               2

Attachment

cc: Deborah Dietrich (8101R)
    Peter Durant (8102R)
    Jim Morant (8102R)
    Linda Ross (8102R)
    Cheryl Varkalis (8102R)
    Chuck Cavanaugh (8102R)




                               42   Report No. 8100256
                           ORD Comments on OIG Draft Report
                                Audit No.E1FMB8-11-0001
                     Pre-Award Management of EPA Assistance Agreements




1. Identification of Specific Instruments

We had difficulty in ascertaining whether ORD assistance agreements were examined during this
audit. Therefore, we request the report be modified to include the identification of specific
instruments. This will further allow us to remedy any deficiencies.

2. Terminology from Agency Guidance

In response to earlier ORMA comments, the OIG indicated that much of its terminology is taken
from Agency Guidance. However, much of the Agency guidance on assistance dates back to a
time before EPA became sensitive to many of the implications of the Federal Grant and
Cooperative Agreement Act (FGCAA) and other issues bearing on misuse of assistance
agreements. The Assistance Administration Manual dates back to 1984, for example, and is very
much in need of revision or replacement.

Except for passing reference to discussion of QA, the report does not refer to the Assistance
Regulations at 40 CFR part 30, which is the most current Agency guidance. That regulation is
more current than and of a higher order of precedence than most of the other guidance cited, and
in it the difference in handling of assistance vs. acquisition is strikingly apparent. For example, at
40 CFR 30.22(h), there is a very high standard established for any suspension of payment. At
30.25(d), it is made clear that special prior approvals are to be carefully limited. At 30.25(f)(1),
recipients have a right to be paid for costs incurred up to three months before the agreement is
even awarded; at 30.25(f)(2), they have a right to a one year extension in performance period.

Much of the Agency terminology in the various relevant manuals dates from long before the
revised regulation and before the Agency began to revisit the intent of the FGCAA during the
early-to-mid 1990's. We believe that it should be possible to use terms in a context that makes it
clear that they are not to be applied in a manner like similar contractual terms.




                                                  43                                 Report No. 8100256
3. Workplan Definition

a. On page i, paragraph 1 under “Results in Brief”, the draft report states:

    ...did not always negotiate workplans with well-defined
    commitments...holding recipients accountable for expected outputs...and
    ensuring that funded activities are accomplished.

RESPONSE: ORD requests the following addition to the beginning of
paragraph 1 on page i:

    It is understood that EPA must not dictate the terms of an assistance agreement to meet EPA
    goals. The laws and regulations associated with assistance emphasize that the objective of
    EPA’s oversight and involvement is to assist the recipient to be as successful as possible in
    accomplishing its goals. Nevertheless, the assistance agreement and the file documentation
    need to present as accurate and complete a picture as possible of the plans and commitments
    and both parties, in order to assure a clear mutual understanding of the commitments made
    by both sides and to help both parties avoid inappropriate (performance) relationships.

Discussion: The report text currently suggests that there is an obligation on the recipient to
accomplish the project as if it were a contract. This approach would be inappropriate for
scientific research grants. In fact, the narratives required of the applicant do outline the stages of
the research, as well simultaneous/sequential analyses, sampling, etc. and provide a general time
frame. Peer reviewers comment on the validity of the approach and the possibility of
accomplishing the research as proposed. To require more specific output and definitive
milestones is not realistic for research, due to its very nature. Furthermore, requiring the process
to be tightly structured at the onset indicates we are approaching the relationship as more of a
contract for a product than assistance for exploring an idea or testing a hypothesis. Our suggested
language would set the context and reduce the potential for misinterpreting the other comments
that follow.

b. On page 5, paragraph 4 under ‘Workplans Should be Well-Defined’, the draft report states:

    ...The initial workplan was issued at least one month late, and the final
    revised workplan was received six months after the date of award....

Discussion: This statement suggests that the internal milestones of the agreement are rigid, and
that there should be some significant consequences if the recipient fails to meet the delivery
schedule. ORD believes that setting such rigid milestones or attempting to manage the agreement
in that manner creates one of the cardinal hallmarks of an acquisition - the requirement to meet a
specific schedule. ORD also notes for illustration that the EPA Assistance Regulations, at 40
CFR 30.25(f) provide the recipient with an absolute right to an overall time extension of up to one
year. Since that is a regulatory right, a small slippage on an internal milestone is not evidence of
deficient performance or grounds for EPA intervention. ORD believes that page 5, paragraph 4


                                                 44                                 Report No. 8100256
of the draft report refers to CR826215 with Battelle Memorial Institute (Columbus Labs).
Assuming we have correctly identified the agreement in question, it serves as a good illustration
of the point. The workplan was about 2 to 3 weeks late, being due just before the Christmas
holiday, and arriving the Monday after the New Years weekend. This is an inconsequential delay
in the overall context of the 3-year agreement and would not be expected to impact the overall
schedule.

The report also notes that it took another 2 to 3 months for EPA comment and revision. This
seems to indicate that the workplan was a critical document that was needed in order to document
the work that was to be done, and that until it was approved there was not an adequate definition
of the work that was covered by the agreement. However, this agreement was based on a very
good program narrative that was submitted with the initial application and favorably evaluated by
a 6-member internal/external peer review panel. That program narrative effectively serves as a
“Statement of Work,” to use a contract analogy. We believe this is typical of most research
cooperative agreements. If the applications do not have such a narrative, they do not pass ORD’s
rigorous peer review and do not receive awards. In this and most such cases, a post award
workplan, if one is required, often serves only to fill in minor gaps or to address recommendations
made by the peers. It would be most unusual for there to be significant issues which would have
to be mutually resolved prior to initiation of the research. In the Battelle case, the initial workplan
only addressed the comments of the peers. The Project Officer (PO) was satisfied with that, but
asked that the workplan be amended to incorporate the details of the original program narrative
too, so that it could be read on its own, without need to refer back to the narrative. This was
deemed to be worth the effort, but it did not in any way indicate a fundamental flaw in the plans
for the research.

c. On page 5, paragraph 3, the draft report states:

    Because program offices were not adequately evaluating workplans....

Discussion: ORD believes that it is already in substantial compliance. In the majority of ORD
awards, we use peer review procedures which assure that the program narrative or “workplan” is
thoroughly evaluated.

d. On page 5, paragraph 4, the draft report asserts that without workplan approval:

    ...there was no enforceable agreement with which to hold the recipient accountable...the
    recipient spent $171,288...Entering into an assistance agreement when there was no
    discernable public purpose (which would be described in the workplan) would appear to
    contravene the requirements of the Federal Grant and Cooperative Agreement Act...we are
    not clear why the Agency would allow funds to be spent without an approved workplan.

RESPONSE: We request that this paragraph be re-evaluated and modified to revise the
inference that assistance workplans should operate like contract workplans.



                                                  45                                Report No. 8100256
Discussion: Again, we believe that this inadvertently conveys the impression that an assistance
agreement would be treated like a contract. In a contract, it is important to be certain that the
Government is fully satisfied that the plans will meet its needs, and to avoid “wasting funds on
approaches that we do not accept.” It is common for the boilerplate of the contract to limit initial
costs to those needed to prepare the workplan. It would be most unusual for an assistance
agreement to be awarded with such a limitation, and if it were done, it would only be because of
severe problems with the program narrative or with the performance history of the recipient.
There would need to be so-called “special conditions.” These are normally reserved for recipients
with major performance concerns, such as potential bankruptcy, etc. While definition of the
workplan is not usually a pacing item in cooperative research, other items often are (such as OMB
Clearance or Human Subject Approval), and in those cases we agree that it is clearly appropriate
to limit activity pending approval.

Finally, the report asserts, without explanation, that the effect of not having the workplan
approved was that EPA was “entering into an assistance agreement when there was no
discernable public purpose....” However, the Decision Memo contained a detailed explanation of
the public purpose, and as noted, the program narrative went into considerable detail regarding
the purposes and benefits to the public, as evidenced by the strong support of both the internal
and external peer reviewers. We believe that the OIG may have overlooked the incorporation of
the program narrative into the cooperative agreement.

4. Return of Incomplete Assistance Funding Packages

a. On page ii, paragraph 1 and on page 11, Recommendation 2-2 the draft report states:

       GAD should return incomplete assistance funding packages to program offices via SRO.

RESPONSE: ORD requests the following change:

       GAD should return incomplete assistance funding packages to program offices via
       the delegated official.

Discussion: Returning an incomplete package to the program office via the SRO seems quite
impractical to us, and an added burden on the SRO’s staff. However, we believe it would be
more effective to return the incomplete package to the delegated official. Also, the SRO only
reviews packages in excess of $1 million. To return less than $1 million packages to the SRO is
unnecessary.

5. Assistance Management Plan

a. On page ii, paragraph 3, and on page 11, recommendation 2-5, the draft report states:




                                                46                                Report No. 8100256
       ...require the development of an assistance management plan prior to approving an award.
       At a minimum, management plans should identify planned oversight activities, estimated
       PO monitoring time and other funds (e.g. travel) required.

RESPONSE: We suggest that the recommendation be deleted.

Discussion: Much of what the OIG recommends for inclusion in the Plan is already routinely
addressed, albeit not in a separate “Plan.” ORD’s Decision Memoranda and Funding Order cover
plans for EPA’s involvement in the agreement, including technical and financial monitoring, and
we call for a condition to address the progress reporting requirements. We also require an
indication that the Approval Official has considered the qualifications and availability of the
proposed EPA PO.

We are concerned about the possibility of confusing the nature of a Management Plan for
assistance with the Management Plan required for contracts. The Contracts Management Plan is
addressed in the Contracts Management Manual, and is quite extensive. So much so that one is
not called for unless the award is to exceed $15 Million (or $25 Million for some offices). In
responding to the draft report, we believe that such plans will be developed only to a degree that
is appropriate to an assistance relationship. In addition, the contract plan is aimed at assuring
contractor accountability. While accountability is relevant, the principal focus of management in
assistance is to aid the recipient in reaching its goals, and that monitoring is to be supportive, not
intrusive. To require a plan for each potential agreement would substantially detract from the
oversight of existing grants and would be redundant when groups of grants may be handled
similarly.

We understand the new EPA Policy for Post-Award Management of Grants and Cooperative
Agreements will provide the necessary flexibility for the implementation of this recommendation
by permitting an annual monitoring plan to be created which aggregated activities for all an
office’s agreement.

6. Training for Managers

a. On page 2, paragraph 2, and on the draft report states:

       ...individuals must first successfully complete the course “Managing Your Financial
       Assistance Agreement–Project Officer Responsibilities.”

RESPONSE: We request the following change to this portion of the report:

       ...individuals must first successfully complete the course, “Managing Your Financial
       Assistance Agreement–Project Officer Responsibilities” or another GAD approved
       course.




                                                  47                                 Report No. 8100256
Discussion: We concur that training is advisable for managers, and that recertification/ refresher
training is beneficial. However, we believe readministration of the full 3-day course would be
redundant, unproductive and extremely burdensome. ORD recently developed training for
managers and training is scheduled this year. Consideration should be given to assigning
responsibility for development and administration of such refreshers to GAD, as is done by OAM
for contracts.

7. SRO Training

a. On page 9, under Additional Training and Oversight Are Needed, the draft report indicates
that SRO’s did not take advantage of training that was offered several years ago.

Discussion: We would like to note that ORD took advantage of the training which resulted in a
lot of the improvement activity that has occurred to date.

8. Cost Reasonableness

a. On page 6, paragraph 3 under “Cost Reasonableness Should Be Determined and
Documented”, the report states:

       ...none of the project files that we reviewed contained evidence that proposed costs were
       reviewed against the narrative/workplan.

Discussion: There are two issues presented here: (1) whether costs are being evaluated
adequately (or at all), and (2) whether the evaluation is adequately documented. Contracts
traditionally rely on market competition or on well documented head-to-head analysis and
negotiation to assure that the government gets value for its money. The dynamics in assistance
are different. One of the benefits of ORD’s competition policy is that we should be able to
assume that recipients will put forth the best research they can for the available funds, in order to
win the award. In addition, even where there is no competition we may be able to presume strong
incentive for the recipient to make cost-effective use of the funding in order to maximize their
research benefits. They are doing the work for their own benefit, not for the government, and
therefore there is a strong incentive for good management. There is certainly a need for
government review of cost reasonableness, but perhaps not at all on the same plane as for
contracts.

It is true that ORD files do not contain cost analyses on the order of those that are normally seen
in contract files, however there is virtually always some review performed, and it is generally
documented to some degree. For example in CR826215, the reasonableness of the cost, relative
to the management plan portion of the program narrative, was included in the 7th evaluation
criteria, and thus was reviewed by all 6 peer reviewers, as well as by the PO and other reviewers.
Traditionally, in contracts operations, the equivalent to the Decision Memorandum includes an
extensive summary of the cost analysis, but in assistance the document does not contain such
analyses.


                                                 48                                Report No. 8100256
ORD agrees that cost reasonableness must be considered for assistance agreements. It is normally
accomplished by the Project Officer and peer reviewers and documented in peer review
comments. Further action should be decided only in consultation with GAD, taking into
consideration the relative roles and skills of Program and GAD employees and proper
relationships with assistance applicants.




                                              49                               Report No. 8100256
                                       September 15, 1998


MEMORANDUM

SUBJECT:       OPPTS Comments on Draft OIG Report “Pre-Award Management of EPA
                 Assistance Agreements”

FROM:          Susan H. Wayland /s/
               Deputy Assistant Administrator

TO:            Gary Katz, Director
                 Grants Administration Division

       OPPTS has reviewed the OIG draft audit report entitled “Pre-Award Management of EPA
Assistance Agreements” dated August 14, 1998, and offers the following comments:

Recommendation 2-1. Refresher and Manager Training Courses: OPPTS agrees that GAD
should take the lead in developing refresher and manager training courses. Said training should
allow for maximum input from program offices and subsequently adhere to uniform standards.
The Resource Management Committee has recognized the need to have all relevant staff
thoroughly versed in assistance awards policy and has set up a committee to develop supervisory
training. Until supervisor, manager and refresher training courses are developed, OPPTS will
investigate the feasibility of setting up its own short half-day orientation courses with mandatory
attendance for supervisors.

Recommendation 2-2. Completeness of Funding Packages: OPPTS agrees that incomplete
packages should be returned to the programs, via the SRO. In addition OPPTS, as a supplement
to Agency guidance, will issue its own internal guidance.

Recommendation 2-3. Train All Levels of Staff involved in Assistance Awards: OPPTS agrees
that all levels of staff involved in assistance awards should be trained, with the caveat that
managers and supervisors attend an abbreviated half-day course, not the full three day course
every three years. Special training should be provided to all approval officials.

Recommendation 2-4 Hold POs and Approval Officials Accountable: OPPTS believes that the
Agency already holds its Project Officers and Approval Officials technically responsible for
workplan specificity, adequacy of determinations of cost reasonableness, and the completeness of
decision memoranda, in both contracting and grants. Further elaboration is required as to HOW
to exercise this accountability.


                                                 50                               Report No. 8100256
Recommendation 2-5 Require Program Offices to Develop an Assistance Management Plan:
OPPTS disagrees with this recommendation, at least until program offices have the opportunity to
implement all of their Management Effective Reviews (MERS) and until GAD’s post-award
management policy is finalized. OPPTS identified some Post Award areas for improvement as
part of last year’s MER. These improvements included having OPPTS PO’s negotiate and not
just accept budgets as submitted, recommended quarterly versus annual reporting, encouraged
site visits by staff, and urged staff to shift from grants to cooperative agreements where there is
more involvement by EPA staff. Furthermore, OPPTS has required that all actual or potential
assistance packages valued at over $250K (as compared to $1,000K for the rest of the Agency)
be signed by the SRO. All packages under $250K are reviewed by a single designated
representative from each program office.

Recommendation 3-1 Require Grants Administration Division to Rewrite EPA Order 5730.1:
OPPTS agrees that ensuring the use of correct program elements or program results codes are the
exclusive responsibility of the program offices. OPPTS has already taken remedial steps (issuance
of guidance, initial training, inclusion of PE Codes within our Program Plan, etc.), with more
efforts forthcoming, to ensure correct usage of program elements and/or program results codes
within OPPTS.

        In Chapter 3, Figure 1, page 12, of the draft audit, funding amounts do not match the
figures from our audit of the referenced documents. The differing figures however, do not
materially affect the results or implications of the OIG review. Secondly, the heading on page 11,
“OPPTS Utilized Funds for Unintended Purposes” may give the impression that OPPTS engaged
in a deliberate diversion of funds. While OPPTS admittedly shifted funds temporarily among
program elements, we believe it is important to note that the sum of money appropriated for each
program element matched the actual sum of funds expended on each program.

       OPPTS appreciates the opportunity to provide comments upon the draft audit.


cc: Andy Privée, OPPTS
    Steve Schwartz, OPPTS
    Barbara Cunningham, OPPT
    Jim Kearns, OPP




                                                51                               Report No. 8100256
                                         September 10, 1998



MEMORANDUM

SUBJECT:       Pre-Award Management of EPA Assistance Agreements
               Draft Audit Report No. E1FMB8-11-0001

FROM:          Sallyanne Harper /s/
               Chief Financial Officer

TO:            Al Pesachowitz
               Acting Assistant Administrator
               Office of Administration and Resources Management (3101)


       In response to your request, following is the Office of the Chief Financial Officer (OCFO)
review of the Office of the Inspector General’s (OIG) draft audit report regarding the Pre-Award
Management of EPA Assistance Agreements. Overall, we agree with the OIGs
recommendations; however, please refer to our suggestions.

2-1    Direct GAD to take the lead in the development of refresher and manager training
       courses, and assist SROs in training all levels of staff involved in assistance award and
       management.
              Suggestion A: It will be more effective to enhance the current Project Officer
              training in light of these findings than to develop new training for additional
              levels of management. If the current training is enhanced and focused then it
              may be suitable for managers and other attendees. The current training should
              highlight and provide guidance for those involved in preparing funding packages,
              the development of a management plan prior to award, and assignment of
              responsibility for ensuring the correct coding of the source of funds. Also see
              Suggestion C.

2-2    Direct GAD to ensure the completeness of funding packages and return incomplete
       assistance funding packages to the program offices via the SRO.

2-3    Train all levels of staff involved in assistance awards. Until supervisor and manager and
       refresher training courses are developed, require managers, supervisors and POs to attend
       the PO training course every three years.



                                                52                              Report No. 8100256
              Suggestion B: Provide each national program manager an annual listing of the
              POs that are certified and those that need/will need recertification along with a
              schedule of classes for the upcoming fiscal year.

2-4    Hold POs and approval officials accountable for workplan specificity, adequacy of
       determinations of cost reasonableness, and the completeness of decision memoranda.
              Suggestion C: Require all EPA POs to review and approve billings from their
              respective award recipient prior to payment by EPA. To avoid the potential
              conflict with the Prompt Payment Act, perhaps require all EPA POs to review and
              approve a draft bill prior to sending a final bill to Finance for payment.

              Suggestion D: GAD should develop guidance for “ workplan specificity” that is
              appropriate for cooperative agreements.

2-5    Require the program offices to develop an assistance management plan prior to approval
       of an award. At a minimum, management plans should identify planned oversight
       activities, estimated PO monitoring time and other funds (e.g. travel) required.
                Suggestion D: See 2-5, Suggestion C.

3-1    Require the Grants Administration Division to rewrite EPA Order 5730.1 to assign
       responsibility for ensuring the use of correct program elements or program results codes
       exclusively to program offices.

Other Matters: -Credit and Receivables Checks
               -Reviewing Accounts Receivable

              Overall Suggestion E: We recommend that a checklist be included in the pre-
              award package which identifies all required actions by the project officer,
              including actions to screen the past financial performance of the potential
              recipient by performing a credit check, reviewing EPA accounts receivable for
              outstanding amounts, and checking for delinquent closeouts of previous EPA
              awards. Identifying potential problems before granting awards may eliminate
              some of the problems currently arising at award closeout.

              Overall Suggestion F: Please refer to the new Small Grants Policy to ensure that
              requiring any detailed documentation in a project plan or management plan will
              not conflict with the new small grants policy. Requirements for the POs and their
              approval officials should be made clear in the training. Examples should be
              provided on how to document interim or final outputs and/or products in a project
              plan.

       Thank you for the opportunity to comment and review this draft audit report. If your staff
have any questions, please call Kimberly Dubbs on 260-1291.



                                               53                               Report No. 8100256
                              APPENDIX C
                                    Distribution




Office of Inspector General

Acting Inspector General
Assistant Inspector General for Audit
Deputy Assistant Inspector General for Internal Audits
Divisional Inspectors General

EPA Headquarters Offices

Agency Followup Official (2710)
Agency Followup Coordinator (2724)
Associate Administrator for Communications, Education and Public Affairs (1701)
Associate Administrator for Congressional and Intergovernmental Relations (1301)
Associate General Counsel, Finance and Operations Law Office (2377)
Comptroller (2731)
Director, Office of Grants and Debarment (3901R)
Assistant Administrators, Senior Resource Officials and Audit Liaisons:
       Office of the Administrator
       Office of Administration and Resources Management
       Office of Air and Radiation
       Office of Enforcement and Compliance Assurance
       Office of International Activities
       Office of Policy, Planning and Evaluation
       Office of Prevention, Pesticides and Toxic Substances
       Office of Research and Development
       Office of Solid Waste and Emergency Response
       Office of Water




                                          54                         Report No. 8100256
